V

§8
No. 20Ifntlje
^tqjrcme Court of tf* ®nfte& States

FILED
AUG 1 0 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

SRAM, LLC,
Petitioner,
u.
FOX Factory, Inc.,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
PETITION FOR A WRIT OF CERTIORARI

Richard B. Walsh, Jr.
Counsel of Record
Michael J. Hickey
Lewis Rice LLC
600 Washington Ave., Suite
2500
St. Louis, MO 63101
(314) 444-7600
rwalsh@le wisrice .com

i—>
C3

-' ir*".
' c=

—'

W

Counsel for Petitioner

■xi ZZ. 'A,

Coo

ooC

ixcz^,

-n -n^o
u. -no
o'ri
rn__

August 10, 2020

OJ
LaJ

RECEIVED
AUG t 7 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S

rr
m

1

QUESTION PRESENTED
In Graham v. John Deere Co. of Kansas City, 383 U.S. 1 (1966), this Court recog­
nized the pivotal importance of “objective indicia” of nonobviousness (also known as
“secondary considerations”) - including the long-felt but unsolved need for the paV

tented invention, the failure of others to arrive at the invention, and the invention’s
subsequent commercial success - in determining whether a patent’s claims were ob­
vious to a person of ordinary skill in the art at the time of the invention under
35 U.S.C. § 103.
In this case, the Federal Circuit effectively undermined this Court’s standard by
improperly creating a new categorical and overly restrictive limitation on the consid­
eration of objective indicia of nonobviousness that exists nowhere in the Patent Act
or this Court’s jurisprudence.

The question presented is:
Whether the Federal Circuit erred in holding that, under 35 U.S.C. § 103, before
a nexus can be presumed between objective indicia of nonobviousness and the patent
claim, a patentee must first prove that a commercial product is “essentially the
claimed invention” - to the exclusion of all other product features.

11

PARTIES TO THE PROCEEDINGS BELOW
Petitioner SRAM, LLC was the patent owner in proceedings before the Patent
Trial and Appeal Board and the appellee in the court of appeals. Respondent FOX
Factory, Inc. was the petitioner in proceedings before the Patent Trial and Appeal
Board and the appellant in the court of appeals.

Ill

RULE 29.6 STATEMENT
SRAM, LLC has no parent corporation, and no publicly traded company owns ten
percent or more of its stock.

IV

RELATED PROCEEDINGS
There are no proceedings directly related to this case within the meaning of
Rule 14.1(b)(iii). Other proceedings that are not directly related to this case but in­
volve the same or related patents and parties are:
•

FOX Factory, Inc. v. SRAM, LLC, No. 19-1544, 2020 WL 2517105 (Fed. Cir.
May 18, 2020)

•

SRAM, LLC v. Race Face Performance Prods., Case No. l:15-cv-11362MMP (N.D. Ill.)

•

SRAM, LLC v. Race Face Performance Prods., Case No. l:16-cv-05262MMP (N.D. Ill.)

V

TABLE OF CONTENTS
Page
QUESTION PRESENTED

1

PARTIES TO THE PROCEEDINGS BELOW

11

RULE 29.6 STATEMENT

in

RELATED PROCEEDINGS

IV

TABLE OF CONTENTS

v

TABLE OF AUTHORITIES

vm

OPINIONS BELOW

1

JURISDICTION

1

STATUTORY PROVISIONS INVOLVED

)

1

STATEMENT
REASONS FOR GRANTING THE PETITION
I.

1
11

The Federal Circuit Erred In Holding That A Patent Owner Must First
Prove That A Product Is “Essentially The Claimed Invention” In Order
To Presume A Nexus Between A Patent Claim And Objective Evidence
Of Nonobviousness

18

VI

TABLE OF CONTENTS—Continued
Page
A.

The Federal Circuit’s Precedents Establish That Nexus Is Properly
Presumed Between A Patent Claim And Objective Evidence Of
Nonobviousness Regardless Of Whether The Product Has Additional,
Unclaimed Features

B.

20

The Federal Circuit’s Precedents Establish That Nexus Is Properly
Presumed Between A Patent Claim And Objective Evidence of
Nonobviousness Even When The Product Is Covered By Multiple Patent
Claims, Including Claims From Related Patents.

II.

25

This Court Should Review The Federal Circuit’s Erroneous Decision In
This Case.

CONCLUSION

33

36

APPENDIX
APPENDIX A: OPINION, Federal Circuit Court of Appeals (December 18, 2019).. la
APPENDIX B: ORDER, Federal Circuit Court of Appeals (March 13, 2020)

23a

APPENDIX C: FINAL WRITTEN DECISION, Patent Trial and Appeal Board,
Case IPR2017-00118 (April 2, 2018)

25a

vu
TABLE OF CONTENTS—Continued
Page
APPENDIX D: FINAL WRITTEN DECISION, Patent Trial and Appeal Board,
Case IPR2017-00472 (April 18, 2018)
APPENDIX E: 35 U.S.C. § 103

J

90a
160a

Vlll

TABLE OF AUTHORITIES
Page(s)
Cases
Brown & Williamson Tobacco Corp. v. Philip Morris Inc., 229 F.3d 1120
(Fed. Cir. 2000)

8, 12

Demaco Corp. v. F. Von Langsdorff Licensing Ltd., 851 F.2d 1387
(Fed. Cir. 1988)

passim

Dennison Mfg. Co. u. Panduit Corp., 475 U.S. 809 (1986)

3,34

Ecolochem, Inc. v. Southern California Edison Co., 227 F.3d 1361
(Fed. Cir. 2000)

12, 20, 22, 23

Expanded Metal Co. v. Bradford, 214 U.S. 366 (1909)
FOX Factory, Inc. v. SRAM, LLC, 944 F.3d 1366 (Fed. Cir. 2019)
FOX Factory, Inc. v. SRAM, LLC, Case IPR2016-01876 (P.T.A.B.)

3
passim
6

FOX Factory, Inc. v. SRAM, LLC, No. 19-1544, 2020 WL 2517105
(Fed. Cir. May 18, 2020)
Gator Tail, LLC v. Mud Buddy LLC, 618 Fed. App’x. 992 (Fed. Cir. 2015)
Gould Inc. v. United States, 579 F.2d 571 (Ct. Cl. 1978)

IV

29,30
26

IX

TABLE OF AUTHORITIES—Continued
Page(s)

Graham v. John Deere Co. of Kansas City, 383 U.S. 1 (1966)

passim

In re GPACInc., 57 F.3d 1573 (Fed. Cir. 1995)

8, 12

Keystone Mfg. Co. v. Adams, 151 U.S. 139 (1894)

3

KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398 (2007)

passim

Media Techs. Licensing, LLC v. Upper Deck Co., 596 F.3d 1334
(Fed. Cir. 2010)

30

Panduit Corp. v. Dennison Mfg. Co., 810 F.2d 1561 (Fed. Cir. 1987)
Polaris Indus., Inc. v. Arctic Cat, Inc., 882 F.3d 1056 (Fed. Cir. 2018)

3
12, 24,31

PPC Broadband, Inc. v. Corning Optical Commc’ns RF, LLC,
815 F.3d 734 (Fed. Cir. 2016)

passim

SRAM, LLC v. Race Face Performance Prods., Case No. l:15-cv-11362-MMP
(N.D. Ill.)

iv, 5

SRAM, LLC v. Race Face Performance Prods., Case No. l:16-cv-05262-MMP
(N.D. Ill.)

iv, 5

Transocean Offshore Deepwater Drilling, Inc. v. Maersk Drilling USA, Inc.,
699 F.3d 1340 (Fed. Cir. 2012)

11,18

X

TABLE OF AUTHORITIES—Continued
Page(s)

WBIP, LLC v. Kohler Co., 829 F.3d 1317 (Fed. Cir. 2016)

passim

Statutes
28 U.S.C. § 1254(a)
28 U.S.C. § 1295(a)(4)(A)
35 U.S.C. § 103

1
9,36
passim

35 U.S.C. § 141(c)

9

35 U.S.C. § 315(b)

5

37 C.F.R. § 1.75(b)

15

Patent Act of 1790, Ch. 7, 1 Stat. 109-112 (Apr. 10, 1790)

15

U.S. Const, art. I, § 8, cl. 8

14

Other Authorities
Dennis Crouch, Nexus: Product must be ‘Essentially the Claimed Invention’
(Dec. 19, 2019) (available at https://patentlyo.com/patent/2019/12/productessentially-invention.html)

32

XI

TABLE OF AUTHORITIES—Continued
Page(s)

From George Washington to the United States Senate and House of
Representatives, 8 January 1790 , FOUNDERS ONLINE (available at
https://founders.archives.gov/documentsAVashington/05-04-02-0361)

15

Jason D. Eisenberg, et al., Nexus: the PTAB’s Objective Indicia of
Non-Obviousness Analysis Under Fox Factory Designated as Precedential
(July 2020) (available at https://www.sternekessler.com/newsinsights/publications/nexus-ptabs-objective-indicia-non-obviousness-analysisunder-fox-factory)
Manual of Patent Examining Procedure (9th ed. R-10.2019, June 2020)

33

26

Matthew Bultman, Patent Defenses May Get Trickier After Federal Circuit
Ruling, (Dec. 24, 2019) (available at https://news.bloomberglaw.com/iplaw/patent-defenses-may-get-trickier-after-federal-circuitruling?context-se arch&index=2)

32

\

OPINIONS BELOW
The opinion of the Federal Circuit (App. la-22a) is reported at 944 F.3d 1366 (Fed.
Cir. 2019). The Federal Circuit’s order denying rehearing en banc (App. 23a-24a) is
unreported. The Patent Trial and Appeal Board’s Final Written Decisions containing
its findings of facts and conclusions of law (App. 25a-159a) are unreported.
JURISDICTION
The Federal Circuit entered judgment on December 18, 2019. That court denied
SRAM’s timely petition for rehearing en banc on March 13, 2020. This Court has
jurisdiction pursuant to 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
35 U.S.C. § 103, the statute governing patent obviousness, is reproduced in the
Appendix at 160a.
STATEMENT
1.

This case involves a newly expressed standard requiring proving a negative,

contrary to the legal standards grounded in fundamental fairness used to evaluate
the obviousness of a patent under 35 U.S.C. § 103 and the underlying importance
given to “objective indicia” of nonobviousness (also known as “secondary considera­
tions”), including, inter alia, the long-felt but unmet need for the patented invention.

2
the failure of others to arrive at the invention, and the invention’s subsequent com­
mercial success. The Court’s patent jurisprudence has repeatedly underscored the
pivotal significance of such objective facts in the legal inquiry regarding patent obvi­
ousness. In Graham v. John Deere Co. of Kansas City, 383 U.S. 1 (1966), the Court
set out a framework for applying the statutory language of § 103 through an objective
analysis:
Under § 103, the scope and content of the prior art are to be determined;
differences between the prior art and the claims at issue are to be ascer­
tained; and the level of ordinary skill in the pertinent art resolved. Against
this background, the obviousness or nonobviousness of the subject matter is
determined. Such secondary considerations as commercial success, long felt
but unsolved needs, failure of others, etc., might be utilized to give light to
the circumstances surrounding the origin of the subject matter sought to be
patented.
Id. at 17-18. Indeed, such secondary considerations “may also serve to guard against
slipping into the use of hindsight, and to resist the temptation to read into the prior
art the teachings of the invention in issue.” Id. at 36 (internal quotations and cita­
tions omitted). The Court reaffirmed this understanding in KSR Inti Co. u. Teleflex
Inc., 550 U.S. 398 (2007):
While the sequence of these questions might be reordered in any particular
case, the factors continue to define the inquiry that controls. If a court, or
patent examiner, conducts this analysis and concludes the claimed subject
matter was obvious, the claim is invalid under § 103.

3

Id. at 407.
Indeed, the significance given to such objective indicia of non-obviousness traces
back in this Court’s jurisprudence for more than one hundred years. See, e.g., Den­
nison Mfg. Co. v. Panduit Corp., 475 U.S. 809, 810-11 (1986) (granting petition for
certiorari and remanding to Federal Circuit for further consideration of obviousness
factors, including secondary considerations), on remand, Panduit Corp. v. Dennison
Mfg. Co., 810 F.2d 1561, 1578-79, 1582 (Fed. Cir. 1987) (ultimately finding patent
nonobvious based in part on undisputed evidence of commercial' success, failure of
others, and copying); Expanded Metal Co. v. Bradford, 214 U.S. 366, 381 (1909) (“It
may be safely said that if those skilled in the mechanical arts are working in a given
field, and have failed, after repeated efforts, to discover a certain new and useful im­
provement, that he who first makes the discovery has done more than make the ob­
vious improvement which would suggest itself to a mechanic skilled in the art, and is
entitled to protection as an inventor.”); Keystone Mfg. Co. v. Adams, 151 U.S. 139,
143-45 (1894) (The fact of a patented product’s success in displacing an existing prod­
uct “is always of importance, and is entitled to weight, when the question is whether
the machine exhibits patentable invention”; likewise, “when, in a class of machines

4
so widely used as those in question, it is made to appear that at last, after repeated
and futile attempts, a machine has been contrived which accomplishes the result de­
sired, and when the patent office has granted a patent to the successful inventor, the
courts should not be ready to adopt a narrow or astute construction, fatal to the
grant.”).
2.

Petitioner SRAM, LLC is one of the world’s leading bicycle component manu­

facturers. Among its many innovative and industry-praised products, petitioner mar­
kets and sells novel bicycle chainrings under the “X-Sync” brand name, which chainrings are undisputedly covered by the claims of U.S. Patent No. 9,182,027 (“the ‘027
patent”). See App. 43a, 109a. The ‘027 patent is directed to a novel solution for main­
taining a conventional bicycle chain on the chainring without needing extraneous de­
vices (such as chain guards, chain tensioners, chain catchers, and derailleur configu­
rations) to do so, thereby enabling the bicycle to be successfully and reliably ridden
over challenging and rough terrain. App. 2a, 27a-28a, 92a-93a. The ‘027 patent helps
to achieve such benefits by combining teeth offset from the center of the chainring
with teeth having alternating narrow and wide tooth tips. App. 2a-3a, 29a-30a, 93a95a.

5
a. In December 2015, petitioner sued a subsidiary of respondent for patent in­
fringement when it copied petitioner’s X-Sync chainring products in the U.S. District
Court for the Northern District of Illinois. See SRAM, LLC u. Race Face Performance
Products, Case No. l:15-cv-11362-MMP (N.D. Ill. filed Dec. 17, 2015). Petitioner sub­
sequently sued respondent’s subsidiaries again on a patent related to the ‘027 patent,
namely, U.S. Patent No. 9,291,250 (“the ‘250 patent”). See SRAM, LLC v. Race Face
Performance Products, et al., Case No. l:16-cv-05262-MMP (N.D. Ill. filed May 16
2016).
Between September 2016 and December 2016, Respondent sought inter partes
reviews (“IPR”) encompassing all twenty-six claims of the ‘027 patent. App. 26a, 91a;
see also 35 U.S.C. § 315(b). The Patent Trial and Appeal Board (“Board”) subse­
quently instituted review over all patent claims. App. 25a-26a, 90a-91a. After con­
ducting trials pursuant to applicable regulations, precedential decisions, and other
guidance, the Board issued final written decisions concluding that respondent had
failed to meet its burden to prove by a preponderance of the evidence that the ‘027

6
patent claims are unpatentable under 35 U.S.C. § 103 over the cited prior art combi­
nations. App. 88a, 158a.1
Following this Court’s guidance in Graham, the Board’s final written decisions
evaluated the scope and content of the cited prior art, ascertained the differences
between the prior art and the claims at issue, addressed the level of ordinary skill in
the pertinent art, and concluded that respondent had shown an “adequate rationale”
to modify the prior art to arrive at the claimed invention. App. 31a-41a, 96a-107a.
Consistent with this Court’s jurisprudence and a long line of Federal Circuit prece­
dent, the Board further recognized that, “ [notwithstanding what the teachings of the
prior art would have suggested to one skilled in the art, objective evidence of non­
obviousness (so called ‘secondary considerations’) may lead to a conclusion that the
challenged claims would not have been obvious.” App. 42a, 108a.

1 The Board issued a similar decision in a third IPR concluding that respondent had not proven
unpatentability of certain of the ‘027 patent claims. See FOX Factory, Inc. v. SRAM, LLC, Case
IPR2016-01876, Paper 59 (P.T.A.B. Apr. 2, 2018). That decision is not at issue here because respond­
ent did not appeal.

7
In particular, the Board evaluated in detail petitioner’s substantial evidence of
great commercial success, extensive licensing, rampant copying, overwhelming praise
by others, long-felt but unsolved need, and failure of others, and agreed with peti­
tioner that its proffered evidence, with respect to the objective indicia of non-obvious­
ness, weighed significantly in favor of non-obviousness. Id.
As noted by the Board, when a patent owner asserts that commercial success (or
some other objective indicia) supports its contention of non-obviousness, there must
of course be a sufficient relationship between that objective indicia and the patented
invention. App. 42a, 108a. The term “nexus” is often used, in this context, to desig­
nate a legally and factually sufficient connection between the proven success (or other
indicia) and the patented invention, such that the objective evidence should be con­
sidered in the determination of non-obviousness. Id. The Board found that petitioner
was entitled to a presumption of nexus between the merits of the claimed invention
and the evidence of secondary considerations because petitioner had shown, with un­
rebutted evidence, that its X-Sync chainring products were covered by and coexten­
sive with the challenged ‘027 patent claims. App. 42a-46a, 108a-114a. The Board
noted that, to be accorded substantial weight, there must be a nexus between the
merits of the claimed invention and the objective evidence of nonobviousness. App.

8
42a, 108a (citing In re GPAC Inc., 57 F.3d 1573, 1580 (Fed. Cir. 1995)). The Board
further noted the Federal Circuit’s controlling precedent on the presumption of nexus,
wherein, “if the marketed product embodies the claimed features, and is coextensive
with them, then a nexus is presumed and the burden shifts to the party asserting
obviousness to present evidence to rebut the presumed nexus.” App. 43a, 109a (citing
Brown & Williamson Tobacco Corp. v. Philip Morris Inc., 229 F.3d 1120, 1130 (Fed.
Cir. 2000)).
Relying upon this precedent, the Board specifically rejected respondent’s asser­
tions that the mere presence of unclaimed features or other patents for the same
products did prevent the presumption of nexus, although they might serve as a basis
for rebutting that presumption. App. 43a-45a, 112a-114a. Ultimately, the Board
found that respondent failed to rebut that presumption of nexus and further deter­
mined that petitioner “made an extremely strong overall showing of objective indicia
of non-obviousness[.]” App. 71a, 140a-141a; see also 53a, 121a. The Board concluded
by finding that, whereas respondent’s rationale to combine “rests mainly on the tes­
timony of its expert,” the “copious objective evidence demonstrates the significance
and importance of Patent Owner’s invention[,]” making the case of obviousness “eas­
ily outweighed by the objective evidence of non-obviousness.” App. 71a-72a, 141a.

9
b. Respondent appealed the Board’s decisions to the Court of Appeals for the
Federal Circuit, which has exclusive jurisdiction over such Board decisions pursuant
to 28 U.S.C. § 1295(a)(4)(A) and 35 U.S.C. § 141(c). A three-judge panel of the Federal
Circuit vacated the Board’s decisions and remanded for further considerations. App.
22a.
The panel did not address the substance of any of petitioner’s “copious” objective
evidence, or dispute the Board’s factual findings regarding that objective evidence.
Rather, the panel created a new legal standard that “the patentee demonstrate that
the product is essentially the claimed invention[,]” such that any “unclaimed features
amount to nothing more than additional insignificant features[.]” App. 12a. The
panel then concluded that, “because there are one or more features not claimed by
the ‘027 patent that materially impact the functionality of the X-Sync products, in­
cluding the >80% gap filling feature claimed in the ‘250 patent, nexus may not be
presumed.” App. 16a. The court of appeals vacated the Board’s obviousness deter­
minations and remanded for the Board to “reevaluate the import of the evidence of
secondary considerations with the burden of proving nexus placed on the correct
party.” App. 22a.

10
c. Petitioner filed a petition for rehearing en banc in this case. Former Chief
Judge of the Federal Circuit, Hon. Paul R. Michel, submitted an amicus curiae brief
in support of petitioner’s petition for rehearing en banc, contending that “[t]he panel’s
decision deviates sharply from and indeed changes this Court’s precedent on the oncesimple ‘presumption-of-nexus’ used to assess a patent claim’s objective indicia of non­
obviousness.” C.A. Dkt. 72 at 1. Chief Judge (ret.) Michel explained further:
For whatever reason, however, the Federal Circuit panel on appeal substan­
tially tightened the requirements for this nexus-presumption, establishing a
new standard that a patentee can meet only if it proves that the commercial
product and the claimed invention are “essentially” identical. Indeed, and
admittedly for the first time, the panel holds that this means the patentee
must prove not only that the product has the features recited in the relevant
claim; but also that the product doesn’t have any additional un-claimed
features either, or that, on the “spectrum” it describes, any such un-claimed
features are “insignificant.”
Id. at 1-2 (internal citation omitted and emphasis in original). The Federal Circuit
denied the petition for rehearing en banc in a per curiam order on March 13, 2020.
App. 23a-24a.

11
REASONS FOR GRANTING THE PETITION
The court of appeals ignored established precedent and erroneously created a new
set of legal standards to prove a negative to evaluate objective evidence in a nonobvi­
ousness analysis. The court of appeals’ newly imagined standards are wholly di­
vorced from its own and this Court’s own deep-rooted precedent and effectively evis­
cerate the ability of a patent owner to benefit from a presumption of nexus between
a patent claim and objective evidence of a successful commercial product whenever
more than a single patent claim covers the product or the product includes unclaimed
features that are not “insignificant.”
1. As this Court has long held, objective evidence of nonobviousness (so-called
“secondary considerations”) may lead to a conclusion that the challenged patent
claims would not have been obvious, notwithstanding what the teachings of the prior
art would have suggested to one skilled in the art. See Graham, 383 U.S. at 17-18;
KSR, 550 U.S. at 399. Likewise, the Federal Circuit has previously endorsed objec­
tive evidence of nonobviousness “may often be the most probative and cogent evidence
in the record” and “may often establish that an invention appearing to have been
obvious in light of the prior art was not.” Transocean Offshore Deepwater Drilling,
Inc. v. Maersk Drilling USA, Inc., 699 F.3d 1340, 1349 (Fed. Cir. 2012). While it is

12
true that, to be accorded substantial weight, there must be a nexus between the merits of the claimed invention and the objective evidence of nonobviousness, see GPAC,
57 F.3d at 1580, the Federal Circuit has also repeatedly held that, “if the marketed
product embodies the claimed features, and is coextensive with them, then a nexus is
presumed and the burden shifts to the party asserting obviousness to present evi­
dence to rebut the presumed nexus.” Brown & Williamson, 229 F.3d at 1130.
The court of appeals has reiterated that a nexus is presumed “even when the
product has additional, unclaimed features,” including features that contribute to the
success of the product. PPC Broadband, Inc, v. Corning Optical Commc’ns RF, LLC,
815 F.3d 734, 747 (Fed. Cir. 2016); Ecolochem, Inc. v. Southern California Edison Co.,
227 F.3d 1361, 1378 (Fed. Cir. 2000). This presumption of nexus applies even where
the patented product embodies and is coextensive with multiple patent claims and/or
multiple patents. See, e.g., Demaco Corp. u. F. Von Langsdorff Licensing Ltd., 851
F.2d 1387, 1392-94 (Fed. Cir. 1988); PPC Broadband, 815 F.3d at 737, 746-47; WBIP,
LLC v. Kohler Co., 829 F.3d 1317, 1324, 1329-32 (Fed. Cir. 2016); Polaris Indus., Inc.
v. Arctic Cat, Inc., 882 F.3d 1056, 1073 (Fed. Cir. 2018).

13
The court of appeals upends that long-standing precedent and creates new, neb­
ulous, and overly restrictive standards inconsistent with the primacy given to objec­
tive evidence under the Court’s own jurisprudence. First, the court of appeals im­
poses a new requirement that no nexus can be presumed until the patent owner first
demonstrates that the commercial product is “essentially the claimed invention” and
that the product only contains “insignificant” unclaimed features that do not “mate­
rially impact” the functioning of the product. App. 12a-14a, 16a. The Panel decision
further holds that no nexus can be presumed where multiple patent claims or multi­
ple related patents cover the product unless those patent claims or patents are “es­
sentially the same invention.” App. 17a. These newly contrived standards directly
undermine and contradict this Court’s and the Federal Circuit’s own well-established
precedent.
The court of appeals has created a burden on the patent holder to prove a nega­
tive, even though respondent had not offered credible evidence that commercial suc­
cess and other objective evidence proven by petitioner was caused by factors other
than the patented claims. This contravenes the court of appeals’ own precedent:
A patentee is not required to prove as part of its prima facie case that the
commercial success of the patented invention is not due to factors other than
the patented invention. It is sufficient to show that the commercial success

14
was of the patented invention itself. A requirement for proof of the negative
of all imaginable contributing factors would be unfairly burdensome, and con­
trary to the ordinary rules of evidence.
Demaco, 851 F.2d at 1394. As warned by its own precedent, the appeals court panel
“put the shoe on the wrong foot”:
Demaco adduced no evidence to show that the paving stone's commercial suc­
cess was due to any factor other than its patented structure. There was no
evidence that its success was due, for example, to advertising or other factors
unrelated to its technological advantages. By placing the burden on Langsdorff to prove that commercial success was not due primarily to advertising
or other factors such as technical service to licensees and the licensing of
other products, the district court put the shoe on the wrong foot.
Id.
2. Preserving the presumption of nexus for objective indicia of non-obviousness
is critical to protecting the fundamental rights of patent holders. The United States
Constitution grants to Congress the power to grant patents, a proprietary right
granted to an inventor: “The Congress shall have Power To . . . promote the Progress
of Science and useful Arts, by securing for limited Times to Authors and Inventors
the exclusive Right to their respective Writings and Discoveries[.]” U.S. CONST, art. I,
§ 8, cl. 8. Of particular note is the use of the word “Right” in this clause. This is the
only place in the Constitution the Founding Fathers actually used the word “Right.”
This makes clear that concept of a patent and the patent system were fundamentally

15
important to the Founding Fathers and to the success and stability of our unique form
of government. Indeed, on January 8, 1790, President George Washington delivered
his first State of the Union speech to Congress. See From George Washington to the
United States Senate and House of Representatives, 8 January 1790 , FOUNDERS
ONLINE (available at https://founders.archives.gov/documents/Washington/05-04-Q20361). In this first ever State of the Union, only months after the ratification of the
Constitution and assuming office, President Washington asked Congress to exercise
its powers granted in the Constitution to enact a patent statute. Id. Congress fol­
lowed suit, passing the Patent Act of 1790 as the third law ever passed by Congress.
See Patent Act of 1790, Ch. 7, 1 Stat. 109-112 (Apr. 10, 1790).
A patent confers a property right, one defined by the claims that follow the de­
tailed description of the invention within the patent document itself. These claims
define the metes and bounds of that property right, much like a deed may define the
extent of a parcel of real property. See 37 C.F.R. § 1.75(b). There may be multiple
claims in a given patent, but each claim defines its own, unique invention. Id. Each
claim is required by rule to be a separate invention from any other claim within a
patent. Id. This allows an inventor to define their invention in different ways. This
procedure implicitly recognizes that an invention may be defined in many different

16
ways, due to both the complexity and imprecision of language, as well as to the po­
tentially complicated nature of any given invention.
Patent Law never requires a patent owner to prove a negative fact. Generally,
this is true in all areas of the law. This maxim exists because long ago legal scholars
and other legal stakeholders recognized the near impossibility of proving that some­
thing is not true. The Federal Circuit recognized this issue when patent owners at­
tempted to show a nexus between their patented inventions and their successful com­
mercial products.

Patent challengers would challenge the validity of the patent

owner’s evidence, arguing that the patent owner had not proved that no other factor
was responsible for the commercial product’s success. The solution for the Federal
Circuit was the presumption that a nexus exists where a patent owner shows that
the commercial product embodies and is coextensive with the patent claims-at-issue.
The Federal Circuit found that such evidence was more than sufficient for the patent
owner to meet its burden of showing a nexus, so the burden to produce rebuttal evi­
dence then shifted to the patent challenger.
Burden shifting frameworks are not new, nor are they unique to Patent Law. For
example, nearly every law student learns about res ipsa loquitur in law school. Res
ipsa loquitur is a tort law doctrine wherein a court may infer negligence, without

17
direct evidence, from the very nature of an accident or injury in the absence of direct
evidence on how any defendant behaved. Such a showing typically requires, inter
alia, the tort plaintiff to make a showing of proof that the injury typically follows
defendant’s negligence, and that the injury was caused by something within the ex­
clusive control of the defendant. In this tort context, as well as in the Patent Law
context of presuming a nexus, legal stakeholders have taken note that when certain
facts are present, a certain cause is almost necessarily the actual cause. This evi­
dence has been found, over many years, to be so reliable that direct evidence is not
required. Thus, like other presumptions that result in a burden shift, the presump­
tion of a nexus is rooted in sound and reliable inferences that are so specific and
trustworthy that courts have allowed the burden-shifting procedure to become a legal
rule.
3. 35 U.S.C. § 103 is one of the core statutes of the Patent Laws defining the
“inquiry that controls” for objectively analyzing the validity of a patent claim. KSR,
550 U.S. at 406-07. As such, the question of how objective evidence of nonobviousness
should be treated as part of this controlling inquiry is an issue of exceptional im­
portance. The Court should grant this petition for a writ of certiorari.

18
I.

The Federal Circuit Erred In Holding That A Patent Owner Must
First Prove That A Product Is “Essentially The Claimed Invention”
In Order To Presume A Nexus Between A Patent Claim And Objective
Evidence Of Nonobviousness.
This Court and the Federal Circuit have long recognized the primacy of an objec­

tive obviousness analysis that considers the scope and content of the cited prior art,
the differences between the prior art and the patent claims at issue, the level of ordi­
nary skill in the pertinent art, and any objective evidence of non-obviousness. This
last category of secondary considerations such as commercial success, long-felt but
unmet need, and failure of others “focus attention on economic and motivational ra­
ther than technical issues” and “may also serve to guard against slipping into the use
of hindsight, and to resist the temptation to read into the prior art the teachings of
the invention in issue.” Graham, 383 U.S. at 36 (internal quotations and citations
omitted). Thus, this objective evidence “may often be the most probative and cogent
evidence in the record” and “may often establish that an invention appearing to have
been obvious in light of the prior art was not.” Transocean, 699 F.3d at 1349.
Despite acknowledging its own precedent about the importance of such objective
evidence and the further precedents that a presumption of nexus has been applied to
patented products including unclaimed features (some of which are even covered by

19
other patents), the Federal Circuit nonetheless turned that precedent on its head and
created a new legal standard requiring a patent owner to prove that a patented prod­
uct is “essentially the claimed invention[,]” to the exclusion of other unclaimed or
separately patented features, before a nexus can be presumed between a patent claim
and objective evidence of nonobviousness. App. 12a, 16a-17a.
That approach, however, would virtually eliminate the ability of a patent owner
to rely upon objective indicia of nonobviousness. This new standard finds no credible
basis in any statutory requirement of 35 U.S.C. § 103, any of this Court’s cases, or
any of the Federal Circuit’s existing precedent. Rather, a straightforward application
of this Court’s and the Federal Circuit’s jurisprudence regarding the importance of
objective evidence in the obviousness inquiry establishes that a nexus is properly pre­
sumed even when the patented product (1) has additional, unclaimed features (in­
cluding features that contribute to the success of the product); and (2) embodies and
is coextensive with multiple patent claims and/or multiple patents.

20
A.

The Federal Circuit’s Precedents Establish That Nexus Is
Properly Presumed Between A Patent Claim And Objective Evi­
dence Of Nonobviousness Regardless Of Whether The Product
Has Additional, Unclaimed Features.

The court of appeals’ decision overturns its own burden-shifting framework for
more than thirty years and is plainly contrary with the underlying importance ac­
corded to objective evidence by the Court’s Graham and KSR precedents and against
the nexus rule grounded in fundamental fairness.
1.

First established in Demaco and followed by PPC Broadband and Ecolochem,

the Federal Circuit has consistently held that unclaimed features may rebut a pre­
sumption, but cannot prevent a finding of a presumption based on objective evidence
where the commercial product embodies and is coextensive with the patent claimsat-issue. See Demaco, 851 F.2d at 1393 (“When the patentee has presented [sufficient
evidence for a presumption] of nexus, the burden of coming forward with evidence in
rebuttal shifts to the challenger, as in any civil litigation.”); PPC Broadband, 815 F.3d
at 746-47; Ecolochem, 227 F.3d at 1378. The Demaco Court explained that such a
rule is grounded in fundamental fairness and the rules of evidence:
A patentee is not required to prove as part of its prima facie case that the
commercial success of the patented invention is not due to factors other than
the patented invention. It is sufficient to show that the commercial success

21
was of the patented invention itself. A requirement for proof of the neg­
ative of all imaginable contributing factors would be unfairly bur­
densome, and contrary to the ordinary rules of evidence.
Demaco, 851 F.2d at 1394 (italicized emphasis in original, bold italicized emphasis
added).
In PPC Broadband, the court of appeals again commented on this issue, stating
that, where the evidence shows that a successful product is the invention disclosed
and claimed in the patent-at-issue, a nexus is presumed between the objective evi­
dence and the successful product, and “[t]his is true even when the product has
additional, unclaimed features.” 815 F.3d at 747 (emphasis added). This clear
statement was made without reservation or limitation.
2. Contrary to this precedent, the court of appeals held that no presumption
could be found for petitioner due to certain unclaimed features. The court of appeals
effectively overturns the Demaco rule and reverses the burden-shifting effect of the
presumption, forcing the patent owner to prove first that the product is “essentially
the claimed inventionf,]” meaning that the product does not include any other un­
claimed features that “materially impact” the functionality of the product or are oth­
erwise not “insignificant.” App. 12a-13a, 16a. Under the court’s rationale, the patent

22
owner must first prove a negative whenever a patent challenger merely alleges un­
claimed features.
3. As explained in Demaco, such a framework eviscerates the effectiveness of
the presumption, as previous patent challengers were required to rebut a patentee’s
showing with evidence, and not with only argument and conjecture. See 851 F.2d at
1393-94. “It is thus the task of the challenger to adduce evidence to show that the
commercial success was due to extraneous factors other than the patented invention,
such as advertising, superior workmanship, etc.” Demaco, 851 F.2d at 1393 (further
noting that “‘argument’ and ‘conjecture’ are insufficient: [the] argument that a nexus
between commercial success and [patent owner’s] invention is lacking and its conjec­
ture that some of the commercial success here proven may have been due to elements
in nonasserted claims are inadequate to overcome the objective evidence of record”).
Notably, in Ecolochem, the Federal Circuit found a presumption even in the face
of admitted unclaimed features that actually contributed to the success of the com­
mercial product. 227 F.3d at 1378. In particular, the Ecolochem Court confirmed
that the patented commercial product was successful “based on two factors: the im­
proved filtration process, and the mobility of the commercial embodiment.” Id. The
Ecolochem Court further recognized that the improved filtration process was covered

23
by the claims-at-issue, although the mobility characteristics were not. Id. However,
even given these undisputed facts that unclaimed features contributed to the com­
mercial success of the patented product, the Federal Circuit found a presumption of
nexus was proper, then shifted to the patent challenger the burden of showing that
the claimed features were not responsible for the patented product’s success. Id.
4. From an evidentiary standpoint, the presumption of nexus “is generally made
out when the patentee shows both that there is commercial success, and that the
thing (product or method) that is commercially successful is the invention disclosed
and claimed in the patent.” Demaco, 851 F.2d at 1392. Demaco identifies only one
limitation to this presumption finding: where “the thing that is commercially suc­
cessful is not coextensive with the patented invention[.]” Id. The sole example given
in Demaco of a lack of coextensiveness was tied to situations where “the patented
invention is only a component of a commercially successful machine or process,” id.,
which is “[a] limited exception[.]” WBIP, 829 F.3d at 1329 n.3.
The court of appeals protests that, unless it expands this narrow exception, “the
coextensiveness requirement would rest entirely on minor variations in claim drafting[,]” and cites an example about claims directed to “brake pads” on a related “auto­
mobile.” App. 16a. Yet, not only could that presumption be easily rebutted in that

24
instance, but also the example given is indistinguishable from the facts involved in
the Federal Circuit’s precedential Polaris decision.
In Polaris, the Federal Circuit reversed the Board’s denial of a presumption of
nexus for claims that broadly “cover the entire vehicle, rather than ‘only a component
of a commercially successful machine.’” 882 F.3d at 1073 (emphasis in original). The
claims tied to objective evidence in Polaris recite “components housed within ... ATVs,
and specif[y] the spatial relationship between these components.” Id. at 1060. Again,
instead of being limited to only these components, the claims broadly covered an en­
tire ATV vehicle. See, e.g., id. at 1063, 1073. Thus, in Polaris, because the claims
were directed to an entire vehicle, and not to only the claimed components of the
vehicle, the Federal Circuit found the Board erred by not presuming a nexus. Id. at
1073.
Multiple other controlling precedent from the Federal Circuit also specifically
holds that a presumption of nexus is appropriate where “the patentee shows both that
there is commercial success, and that the thing (product or method) that is commer­
cially successful is the invention disclosed and claimed in the patent.” Demaco, 851
F.2d at 1392; see also PPC Broadband, 815 F.3d at 747 (“When the patentee has pre-

25
sented undisputed evidence that its product is the invention disclosed in the chal­
lenged claims, it is error for the Board to find to the contrary without further expla­
nation.”); WBIP, 829 F.3d at 1329-32. Under this precedent, whether additional, un­
claimed features are present in the commercial product has no effect on whether a
presumption of nexus is applied in the first instance.
The court of appeals’ decision here improperly shifts the burden to patent owners
to prove the negative - namely, that the commercial product has no “significant” un­
claimed features contributing to the success or functionality of the product - in order
to gain the presumption of nexus between the objective evidence and the challenged
claims. This is contrary to Federal Circuit precedent, is inconsistent with the juris­
prudence of this Court affirming the importance of objective evidence in the obvious­
ness analysis under 35 U.S.C. § 103, and justifies a grant of the petition for certiorari
on this basis alone.
B.

The Federal Circuit’s Precedents Establish That Nexus Is
Properly Presumed Between A Patent Claim And Objective Evi­
dence of Nonobviousness Even When The Product Is Covered By
Multiple Patent Claims, Including Claims From Related Patents.

Especially damaging to the ability of patent owners to protect their successful
inventions through robust and varied patent claims, the court of appeals virtually

26
eliminated the possibility of more than one claim in a patent or related patents shar­
ing a presumption of nexus, holding that “[w]here a product embodies claims from
two patents, a presumption of nexus can be appropriate only if the claims of both
patents generally cover the same invention[,]” or “essentially the same invention.”
App. 17a.
1.

The court of appeals’ decision ignores its own applicable precedent, which

does not require claims to be “essentially the same invention” in order to share a
presumption of nexus. As a matter of basic patent law, each patent claim necessarily
includes different features than the other claims in that patent or any related patent.
Otherwise, the Patent Office could not issue the claims. See 37 C.F.R. § 1.75(b) (“More
than one claim may be presented provided they differ substantially from each other
and are not unduly multiplied.”); MANUAL OF PATENT EXAMINING PROCEDURE §
2107.02 (9th ed. R-10.2019, June 2020) (“Each claim (i.e., each ‘invention’), therefore,
must be evaluated on its own merits for compliance with all statutory require­
ments.”); Gould Inc. v. United States, 579 F.2d 571, 576 (Ct. Cl. 1978) (“It is also
important to keep in mind that each claim of a patent is a separate and distinct in­
vention.”).

27
2.

For each of the cases cited by the court of appeals in support of its newly

imagined standard, the scope of the claimed inventions varies significantly and shows
that the Federal Circuit has previously and consistently endorsed a presumption of
nexus even when the commercial product is covered by multiple patent claims (in­
cluding claims from related patents) significantly different in scope.
For example, in WBIP, the claims of the two patents-at-issue (U.S. Patent Nos.
7,832,196 and 7,314,044), are respectively directed to a “method of controlling emis­
sions from an internal combustion engine configured for marine application” and to
a “marine engine” itself. 829 F.3d at 1329 n.3. As a preliminary matter, the claims
across the two patents are not even directed to the same statutory class of invention
(method vs. apparatus). Further, claim 26 of the ‘196 patent recites certain required
features not found in claim 1 of the ‘044 patent, including: (1) “an internal combustion
engine”; (2) “driving an electric generator”; (3) “driving a variable load on the engine”;
(4) a sensor “located upstream of [a] catalyst”; (5) “the catalyst being configured to
simultaneously reduce oxides of nitrogen, carbon monoxide and hydrocarbons”; and
(6) using “electronic fuel injection.” Not only are these claims of widely differing
scope, but they even cover mere components (an internal combustion engine) of an
overall system (an electricity generation system). Nevertheless, the WBIP Court

28
found a presumption of nexus appropriate for these multiple related patents for a
single product. Id. at 1331.
Similarly, the claims of the three related patents in PPC Broadband (U.S. Pa­
tent Nos. 8,287,320, 8,313,353, and 8,323,060) vary widely in scope. See 815 F.3d at
737. Claim 7 of the ‘353 patent recites a “method of assembling a coaxial connector[,]”
while exemplary claims 1 and 8 of the ‘060 and ‘320 patents, respectively, recite co­
axial cable connectors themselves. Further, each of these claims has features not
shared with the others. Claim 8 of the ‘320 patent recites a connecting nut that “does
not touch [the claimed] connector body,” and a post engaged with the claimed con­
nector body, limitations lacking in the other two patent claims discussed in PPC
Broadband. Claim 7 of the ‘353 patent is the only representative claim to recite a
process for assembling a connector having a specific positioning of a post flange,
which is used to maintain electrical continuity, and fails to recite an ability to main­
tain electrical continuity when a connecting nut is either partially or fully tightened,
unlike the other claims. Claim 1 of the ‘060 patent is the only identified claim to
recite a post flange having a lip to assist with maintaining electrical continuity, a
“continuity post engaging surface extending from the lip surface [,]” and a coupler in-

29
stead of the nut of the other claims. Even though the claims from these related pa­
tents varied significantly in scope, the Federal Circuit nevertheless presumed a nexus
between each of these claims and the underlying products. Id. at 747.
Likewise, in Gator Tail, LLC v. Mud Buddy LLC, 618 Fed. App’x. 992 (Fed.
Cir. 2015), the Federal Circuit presumed a nexus between U.S. Patent Nos. 7,052,340
and 7,297,035, which were respectively directed to a “portable drive assembly” and a
“marine craft” including such a portable drive assembly. See 618 Fed. App’x at 993,
996, 1000. In addition to one patent claiming a component versus the other patent
claiming an entire vehicle with that component, the related patent claims also recite
significant structural differences for the claimed invention. For example, claim 1 of
the ‘035 patent recites a “shaft housing extending in excess of 18 inches beyond [a]
drive housing,” id. at 996, whereas claim 1 of the ‘340 patent has a broader range of
a “driven assembly extending at least 12 inches beyond [a] drive housing.” Internal
to the ‘340 patent, claim 4 requires additional structures, such as vertical triangular
fin located below the shaft housing, in contrast to claim 6, which has no such limita-

30
tion but adds the limitation of a self-contained air-cooled utility engine having a hor­
izontal output shaft. Despite these differences, the Federal Circuit still endorsed a
shared presumption of nexus. Id. at 1000.2
3.

Other precedents from the Federal Circuit similarly hold that multiple

patent claims can share a presumption of nexus, even though the claims differ signif­
icantly in scope and therefore would not satisfy the Panel’s newly-created “essentially
the same invention” rule. See, e.g., Demaco, 851 F.2d at 1389-94 (awarding presump­
tion of nexus for claims 9, 13, and 29-33 of U.S. Patent No. 4,128,357 where claim 9
only covered the slab elements of a paving structure compared to claims 13, 32, and

2 In Media Techs. Licensing, LLC v. Upper Deck Co., 596 F.3d 1334 (Fed. Cir. 2010), cited at
page 18 of the court of appeals’ decision (see App. 18a), it is unclear whether a nexus was presumed.
However, in direct contravention to the court of appeals’ assertion that “the related patents were
drawn to the same invention,” App. 18a, the claimed inventions were quite different. Claim 1 of U.S.
Patent No. 5,803,501 requires the patented memorabilia card to include “a background image and a
foreground image” of a famous person and a certificate of authenticity. By comparison, exemplary
claim 23 of related U.S. Patent No. 6,142,532 has no such limitation but instead requires “a portion of,
but not the entirety, of an authentic memorabilia item” that is “a tiny piece of wood taken from [a]
bat.”

31
33 covering the overall system of a paving structure; where claims 13 and 33 required
slab elements to be arranged a herringbone pattern deemed by an executive of the
patent owner to be “quite important to the strength of the pavement under traffic
load” even though the other claims did not include this limitation; and where claims
9 and 29-33 had inclined sides of the slab elements shorter than the end face sides, a
limitation not found in claim 13); Polaris, 882 F.3d at 1060-61, 1073 (confirming pre­
sumption of nexus applied between claims 34 and 36-38 of U.S. Patent No. 8,596,405
and a successful ATV vehicle known as the “RZR,” even though the claims differed
significantly in the types of spatial limitations applicable to the vehicle, including
that claim 37 requires a low point of the vehicle’s “seating surface is below a top of
the engine [,]” while claim 38 requires that “all portions of the engine are located rearwardly of at least a portion of a seat in the seating area”).
4.

In short, the court of appeals’ newly conceived requirement that multiple

patents and patent claims can only share a presumption of nexus if they are “essen­
tially the same invention” is a fundamental misunderstanding of patent law and mis­
reading of its own precedent. By definition, patent claims are always different inven­
tions and thus have no “insignificant” additions. Nothing in the Patent Law, this
Court’s precedent, or the Federal Circuit’s own precedent says otherwise.

32
Focusing on the differences in patent claim language does not “turn the inquiry
into one of form over substance,” as the court of appeals suggests. App. 16a-17a. The
language of a patent claim is its substance — it is the identification of the invention
itself. There is no bar in the Court’s precedent (or the Federal Circuit’s precedent,
for that matter) for multiple claims from one patent or multiple related patents shar­
ing a rebuttable presumption of nexus, so long as the claims embody and are coexten­
sive with the commercial products. The Court should not disregard the substance of
patent claims or the precedent that recognizes their importance.3

3 In addition to former Chief Judge of the Federal Circuit, Hon. Paul Michel, multiple commenta­
tors have criticized the Federal Circuit’s decision and its negative implications for the obviousness
analysis under 35 U.S.C. § 103. See, e.g., Dennis Crouch, Nexus: Product must be “Essentially the
Claimed Invention” (Dec. 18, 2019) (available at https://patentlvo.com/patent/2019/12/product-essentiallv-invention.html) (“This is an important case for anyone arguing secondary indicia — not a good
case for patent holders. The court here again raised the ‘nexus’ hurdle by holding that a presumption of
nexus can only be achieved by proving that the product being sold by the patentee is ‘essentially the
claimed invention. ”) (emphasis in original); Matthew Bultman, Patent Defenses May Get Trickier After
Federal Circuit Ruling (Dec. 24, 2019) (available at https://news.bloomberglaw.com/ip-law/patent-defenses-mav-get-trickier-after-federal-circuit-ruling?context=search&index=2 ) (“The decision in Fox

33
II.

This Court Should Review The Federal Circuit’s Erroneous Deci­
This Case.

sion In

Recognizing the central importance of the obviousness inquiry under 35 U.S.C.
§ 103 for uniformity in evaluating patent validity for the Nation’s inventions, which
controlling inquiry necessarily includes the review of any pertinent objective evidence
of nonobviousness (so called “secondary considerations”), this Court has previously
granted certiorari on multiple occasions to provide proper guidance on the scope and
analysis required under § 103. See Graham, 383 U.S. at 17-18; KSR, 550 U.S. at 399,

Factory Inc. u. SRAM LLC by the U.S. Court of Appeals for the Federal Circuit may create headaches
for companies trying to argue their patent doesn’t cover an obvious invention[.] ... [Attorneys] pre­
dicted the question of whether a particular feature is insignificant will become a battleground. It’s
going to be very muddy in other cases.”) (internal quotations omitted); Jason D. Eisenberg, et al.,
Nexus: the PTAB’s Objective Indicia of Non-Obviousness Analysis Under Fox Factory Designated as
Precedential

(July

2020)

(available

at

https://www.sternekessler.com/news-insights/puhliea-

tions/nexus-ntabs-obiective-indicia-non-obviousness-analvsis-under-fox-factorv') (“In Fox Factory, the
Federal Circuit raised the ‘nexus’ bar, making it more difficult for patent owners to prove that the
objective indicia of non-obviousness of a product being sold by the patentee is essentially the claimed
invention.”).

34
407; Dennison, 475 U.S. at 810-11. This case presents a singular opportunity to pro­
vide certainty and clarity to the essential and efficient functioning of the patent sys­
tem on the especially important question of how objective evidence of non-obviousness
should be treated with respect to patented products having unclaimed features.
As this Court recognized more than fifty years ago in Graham, objective evidence
regarding an invention’s commercial success, long-felt but unsolved need, failure of
others, and other facts “might be utilized to give light to the circumstances surround­
ing the origin of the subject matter sought to be patented.” 383 U.S. at 17-18. More­
over, such considerations “may also serve to guard against slipping into the use of
hindsight, and to resist the temptation to read into the prior art the teachings of the
invention in issue.” Id. at 36 (internal quotations and citations omitted).
Such considerations of non-obviousness under 35 U.S.C. § 103 are taken into ac­
count on almost a day-to-day basis during prosecution of patent applications, chal­
lenges of patent validity during IPRs and reexamination proceedings, and patent lit­
igation. The decision by the court of appeals here therefore has far-reaching implica­
tions across the entire patent landscape, as noted by multiple commentators in the
field and as criticized by the former Chief Judge of the Federal Circuit himself, Hon.
Paul Michel.

Moreover, by adopting a wholly new “appellate-created categorical

35
rule [] and hierarch[y] as to the relative weight or significance of proffered evidence,”
the court of appeals has ignored the “highly fact-dependent” nature of the obviousness
inquiry and sought to interpose itself into what is otherwise “the province of the fact­
finder to resolve these factual disputes regarding whether a nexus exists between
commercial success of the product and its patented features, and to determine the
probative value of evidence of secondary considerations.” WBIP, 829 F.3d at 1331
(internal quotations omitted). Finally, this newly conceived rule by the court of ap­
peals violated fundamental fairness, the rules of evidence, and common sense by re­
quiring the patent owner to prove first a negative - namely, that no other product
features contribute to the patented invention - before any presumption of nexus can
attach to its objective evidence, contravening the court’s own precedent on this point:
A patentee is not required to prove as part of its prima facie case that the
commercial success of the patented invention is not due to factors other than
the patented invention. It is sufficient to show that the commercial success
was of the patented invention itself. A requirement for proof of the neg­
ative of all imaginable contributing factors would be unfairly bur­
densome, and contrary to the ordinary rules of evidence.
Demaco, 851 F.2d at 1394 (italicized emphasis in original, bold italicized emphasis
added). Such a rule will essentially eviscerate the submission of objective evidence

36
in obviousness inquiries because the vast majority of patent owners will be unlikely
to prove that no other feature of a patented product contributed to its success.

The question presented by this petition is whether 35 U.S.C. § 103 or any prece­
dent of the Court require that, before a nexus can be presumed between objective
indicia of nonobviousness and the challenged patent claim, a patentee must first
prove that a commercial product is “essentially the claimed invention” - to the exclu­
sion of all other contributing product features. Since the Federal Circuit exercises
exclusive jurisdiction over appeals from the Board, 28 U.S.C. § 1295(a)(4)(A), no other
Circuit will weigh in on this question, and patent owners throughout the country will
be adversely affected by having to satisfy a heightened standard of proof with respect
to the patentability of their invention not otherwise found in the Patent Law or this
Court’s jurisprudence. The Court should grant certiorari now, in this case, to decide
whether such a new standard of proof is required by law.
CONCLUSION
The petition for writ of certiorari should be granted.

Respectfully submitted,

Richard B. Walsh, Jr.
Counsel of Record
Michael J. Hickey
Lewis Rice LLC
600 Washington Ave.,
Suite 2500
St. Louis, MO 63101
(314) 444-7630
rwalsh@lewisrice .com
mhickev@lewisrice.com
August 10, 2020

